No. 19-1033
IN THE SUPREME COURT OF THE UNITED STATES
_________________
DANIEL ENRIQUE CANTU, PETITIONER
v.
JAMES M. MOODY, ET AL.
_________________
CERTIFICATE OF SERVICE
It is hereby certified that all parties required to be served have been served with
copies of the BRIEF FOR THE FEDERAL RESPONDENTS IN OPPOSITION, via
email and first-class mail, postage prepaid, this 8th day of May, 2020.
[See Attached Service List]
As required by Supreme Court Rule 33.1(h), I certify that the document contains
4,915 words, excluding the parts of the document that are exempted by Supreme Court
Rule 33.1(d). I declare under penalty of perjury that the foregoing is true and correct.
Executed on May 8, 2020.

May 8, 2020

Noel J. Francisco
Solicitor General
Counsel of Record
Department of Justice
Washington, D.C. 20530-0001
(202) 514-2217

Due to the continuing delay in receiving incoming mail at the Department of
Justice, in addition to mailing your brief via first-class mail, we would appreciate a fax or
email copy of your brief. If that is acceptable to you, please fax your brief to Charlene
Goodwin, Supervisory Case Management Specialist, Office of the Solicitor General, at
(202) 514-8844, or email at SupremeCtBriefs@USDOJ.gov. Ms. Goodwin’s phone
number is (202) 514-2217 or 2218. Thank you for your consideration of this request.

19-1033
CANTU, DANIEL ENRIQUE
JAMES M. MOODY, ET AL.
JEROLD D. FRIEDMAN
LAW OFFICE OF JEROLD D. FRIEDMAN
19744 BEACH BLVD.
SUITE 390
HUNTINGTON BEACH, CA 92648
213-536-1244
PAUL W. HUGHES
MCDERMOTT WILL & EMERY LLP
500 NORTH CAPITOL STREET NW
WASHINGTON, DC 20001
202-756-8000
PHUGHES@MWE.COM

VIA EMAIL

